U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jerris M. Blanks v. United States of America
S.Ct. No. 21-5489

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2021, and placed on the docket on August 26, 2021. The government’s response is due on
September 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5489
BLANKS, JERRIS M.
USA

JONATHAN THEODORE STERNBERG
JONATHAN STERNBERG ATTORNEY, P.C.
2323 GRAND BOULEVARD
STE. 1100
KANSAS CITY, MO 64108
816-292-7020
JONATHAN@STERNBERG-LAW.COM

